No.

In ITOie

Supreme Court of tlje Unite!) States
Todd Phillippi,
Petitioner,
V.

Humble Design, L.L.C.
and Warren David Humble,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
APPENDIX

Todd Phillippi
Petitioner pro se
411 North 8th Street
Midlothian, TX 76065
Tel: 214-497-8935
Fax: 972-775-2950
toddphillippi@yahoo. com
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800)847-0477

1

TABLE OF CONTENTS
Opinion of the U.S. Court of Appeals
for the Fifth Circuit, filed March 3, 2020

A1

Order of the U.S. District Court for the
Northern District of Texas, Dallas Division,
filed June 12, 2019............................................

A4

Joint Stipulation of Voluntary Dismissal
with Prejudice of Plaintiff s Claims Against
Defendants, filed August 5, 2016..................

A6

Docket Entries 99 and 113 from the U.S.
District Court for the Northern District
of Texas, Dallas Division...........................

A8

A1
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT

No. 19-10769

FILED: March 3, 2020
AUTOMATION SUPPORT, INCORPORATED,
doing business as Technical Support; SOYOKAZE
INCORPORATED,
Plaintiffs - Appellees
v.
HUMBLE DESIGN, L.L.C.; WARREN DAVID
HUMBLE,
Defendant - Appellees
v.
TODD PHILLIPPI,
Movant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
USDCNo. 3:14-CV-4455

Before KING, JONES, and COSTA, Circuit Judges.
PER CURIAM:*
* Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5th CIR. R.
47.5.4.

A2
Automation Support, Inc. and Soyokaze, Inc.
sued their former employees Becky Wallace and
Warren Humble, as well as Humble’s new business,
Humble Design, L.L.C. The plaintiffs asserted
breach of contract, breach of fiduciary duty, tortious
interference with contract, misappropriation of trade
secrets, and violations of the Texas Theft Liability
Act. The parties consented to have a magistrate
judge conduct proceedings and enter judgment.
See 28 U.S.C. § 636(c).
Eventually the parties filed a joint stipulation of
voluntary dismissal with prejudice under Federal
Rule of Civil Procedure 41 (a) (1) (A) (ii). The
defendants then sought attorney’s fees under the
Texas Theft Liability Act and the Texas Uniform
Trade Secrets Act, both of which entitle a prevailing
defendant to fees and costs. TEX. CIV. PRAC. &
-REM. CODE §§ 134.005(b), 134A.005(1). The
magistrate judge granted the motion and ordered the
plaintiffs to pay $69,204.12.
Automation Support appealed that ruling as well
as the denial of requests to vacate the judgment
under Federal Rule of Civil Procedure 60. We
affirmed and remanded for an award of appellate
attorneys’ fees. Automation Support, Inc. u. Humble
Design, LLC, 734 F. App’x 211, 216 (5th Cir. 2018).
The magistrate judge entered an additional fee
award of $33,997.58.
Todd Phillippi, an attorney, and Billy and Renee
McElheney, the plaintiff corporations’ owners, then
filed a Rule 60 motion for relief from the judgment.
Phillippi and the McElheneys asserted that they had
a right to seek relief because the plaintiffs had
assigned litigation rights to them and their property
was used to fund the appeal bond. The magistrate

A3
judge denied the Rule 60 motion. Phillippi and the
McElheneys filed repeated objections to the ruling.
Because Phillippi and the McElheneys were not
parties to the case, the magistrate judge barred
them from making additional filings other than a
notice of appeal.
Not to be deterred, Phillippi and the McElheneys
attempted to appeal to the chief judge of the district
the magistrate judge’s grant of attorney’s fees and
order not to file more papers. As the parties had
consented to have the case heard by a magistrate
judge, the district court ruled that any appeal of
the magistrate judge’s rulings must be made to the
court of appeals. Phillippi now appeals the district
court’s order to us.
“[A]n appeal from a judgment by a magistrate
judge in a civil case must be filed in the same
tribunal as any other district court judgment”—that
is, in the appropriate circuit court of appeals. FED.
R. APP. P. 3(a)(3). The district court thus correctly
recognized that it lacked jurisdiction to hear an
appeal of the magistrate judge’s rulings. An order
noting that a party has filed an appeal to the wrong
court is not an appealable final judgment. Put
another way, because the district court had no
jurisdiction over the case, we lack jurisdiction to
review its order. Cf. In re Stangel, 219 F.3d 498, 500
(5th Cir. 2000) (“When the district court lacks
jurisdiction over an appeal from a bankruptcy court,
this Court lacks jurisdiction as well.”). To the extent
that Phillippi seeks to appeal the magistrate judge’s
denial of his request for Rule 60 relief, or the
underlying judgment awarding fees, this appeal was
filed well beyond the 30-day deadline for appealing
those rulings. FED. R. APP. P. 4(a)(1)(A).
The appeal is DISMISSED for lack of
jurisdiction.

A4
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:14-cv-04455-BK
AUTOMATION SUPPORT INC., et al.,
Plaintiffs,
v.
HUMBLE DESIGN, LLC, et al.,
Defendants.
ORDER
Before the Court is the “Federal Rule of Civil
Procedure Rule 72 Objections to the Magistrate
‘Order’ of April 22, 2019 and Referral to Chief
District Judge Barbara M. G. Lynn as Allowed by
Representative Parties and Parties in Privity to
Preserve Appeal” (ECF No. Ill), filed by non-party
movant Todd Phillippi.
The parties in this case consented to a trial
before Magistrate Judge Toliver, (ECF No. 25 at 2),
and the case was transferred to Judge Toliver “to
conduct all further proceedings and entry of
judgment, in accordance with 28 U.S.C. § 636(c) and
the consent of the Parties.” (ECF No. 26). On
December 4, 2018, Judge Toliver entered an order
barring Movant from making any further filings in
this case, other than a notice of appeal, without first
obtaining leave of Court, and instructing the Clerk
to immediately terminate any motions filed by
Movant without first obtaining leave of Court. (ECF
No. 105). On April 22, 2019, Movant filed a Motion

A5
for Relief from Judgment without first obtaining
leave of Court, (ECF No. 109), and the Clerk
terminated the Motion. Movant now requests that
this Court “vacate or modify” the denial of his
Motion for Relief from Judgment.
Because the parties in this case consented to a
trial before Judge Toliver, Movant cannot appeal
Judge Toliver’s orders to this Court. If Movant
wishes to challenge Judge Toliver’s ruling, he may
appeal to the Fifth Circuit. See 28 U.S.C. § 636(c)(3).
IT IS ORDERED that Movant’s Objections are
DENIED.
SO ORDERED.
June 11, 2019.
Is/ BARBARA M. G. LYNN
CHIEF JUDGE

A6
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CIVIL ACTION NO. 3:14-cv-04455
JURY
AUTOMATION SUPPORT, INC. d/b/a
TECHNICAL SUPPORT, and SOYOKAZE, INC.,
Plaintiffs,
v.
BECKY WALLACE, WARREN DAVID HUMBLE
and HUMBLE DESIGN, LLC
Defendants.

JOINT STIPULATION OF VOLUNTARY
DISMISSAL WITH PREJUDICE OF
PLAINTIFFS’ CLAIMS AGAINST
DEFENDANTS
COME NOW, Automation Support, Inc. d/b/a
Technical Support, and Soyokaze, Inc. (“Plaintiffs”)
and Warren David Humble and Humble Design,
LLC (“Defendants”), and pursuant to Federal Rule of
Civil Procedure 41(a)(l)(A)(ii), hereby dismiss with
prejudice all claims and all associated relief
requested in such claims filed in this case by
Plaintiffs.
Defendants reserve the right to seek recovery of
their attorney’s fees and costs from Plaintiffs in
accordance with their answer and motion for
summary judgment and supporting brief on file
herein (Dkt. 34, 46-47).

A7
Respectfully submitted,
/s/ Michael P. Moore
Joseph F. Cleveland, Jr.,
Texas Bar No. 04378900
jcleveland@belaw.com
Michael P. Moore,
Texas Bar No. 24075587
mmoore@belaw.com
BRACKETT & ELLIS
A Professional Corporation
100 Main Street
Fort Worth, Texas 76102-3090
Telephone: (817) 338-1700
Facsimile: (817) 870-2265
ATTORNEYS FOR PLAINTIFFS
/s/ Eric C. Wood
Eric C. Wood
State Bar No. 24037737
eric.wood@solidcounsel.com
SCHEEF & STONE, LLP
2600 Network Blvd., Suite 400
Frisco, TX 75034
(214) 472-2100
(214) 472-2150 FAX
ATTORNEY FOR DEFENDANTS

A8
U.S. District Court
Northern District of Texas (Dallas)
CIVIL DOCKET FOR CASE#: 3:14-cv-04455-BK
Automation Support Inc et al v. Wallace et al
Assigned to: Magistrate Judge Renee Harris Toliver
Case in other court: 17-10433
USCA5, 19-10769
USCA5, 20-10386
Date Filed: 12/18/2014
Date Terminated: 08/05/2016
Jury Demand: Both
Nature of Suit: 190 Contract: Other Contract
Jurisdiction: Diversit
Cause: 28:1332 Diversity-Breach of Contract
99: ELECTRONIC ORDER Plaintiff Automation
Support's Federal Rule of Civil Procedure Rule 60(b)
Motion, Doc. 97 is DENIED. (Ordered by
Magistrate Judge Renee Harris Toliver on
10/24/2018) (chmb) (Entered: 10/24/2018)
06/12/2019:
113: ORDER: Because the parties in this case
consented to a trial before Judge Toliver, Movant
cannot appeal Judge Toliver's orders to this Court. If
Movant wishes to challenge Judge Toliver's ruling,
he may appeal to the Fifth Circuit. IT IS ORDERED
that Movant's Objections are DENIED. (Ordered by
Chief Judge Barbara M.G. Lynn on 6/12/2019) (epm)
(Entered: 06/12/2019)

